           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific re-
quirements for semiannual reports to be made to the Chairman for transmittal to the Con-
gress. A selection of other statutory and administrative reporting and enforcement respon-
sibilities and authorities of the Office of Inspector General (OIG) are listed below:

                    OIG AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97-255    Federal Managers’ Financial Integrity Act of 1982
P.L.          1041-34       Debt Collection Improvement Act of 1996
P.L.          101-576       Chief Financial Officers Act of 1990
P.L.          102-486       Energy Policy Act of 1992
P.L.          103-62        Government Performance and Results Act of 1993
P.L.          103-355       Federal Acquisition Streamlining Act of 1994
P.L.          103-356       Government Management Reform Act of 1994
P.L.          104-106       Information Technology Management Reform Act of 1996
P.L.          104-208       Federal Financial Management Improvement Act of 1996
P.L.          107-289       Accountability of Tax Dollars Act of 2002
P.L.          107-347       Federal Information Security Management Act of 2002
General Accounting Office Government Auditing Standards

             CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                     United States Code, section 552a
Title 18                    United States Code, sections on crime and criminal
                            procedures as they pertain to OIG’s oversight of departmental
                            programs and employee misconduct
Title 31                    United States Code, section 3729 et seq., the False Claims Act
                                                                     ig
                                             October 2003 SemiAnnual Report




                                           TABLE OF CONTENTS
                                                                                                                                             Page

COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                                 1
 The President’s Management Agenda . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 1
 Management Challenge: Competitive Sourcing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        2
 Management Challenge: Improved Financial Performance . . . . . . . . . . . . . . . . . . . . .                                                    2
 Management Challenge: Budget and Performance Integration . . . . . . . . . . . . . . . . . .                                                      3
 Management Challenge: Expanded Electronic Government . . . . . . . . . . . . . . . . . . . . .                                                    4
 Management Challenge: Strategic Management of Human Capital . . . . . . . . . . . . .                                                             6

COMMISSION’S ORGANIZATIONAL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . . .                                                             8

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          9

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   12
 Audit Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           12
 Summary of Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         13
 Audit of the U.S. International Trade Commission’s Financial Management
   System Control, OIG-AR-02-03 (July 24, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        13
 Evaluation of the U.S. International Trade Commission’s Fiscal Year 2003
   Information Security Program and Practices, OIG-AR-03-03
   (September 22, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  14

AUDIT FOLLOW-UP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    16
 Audit of the U.S. International Trade Commission’s Purchase Card Program,
  Audit Report OIG-AR-01-03 (January 28, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                           16
 Evaluation of the Commission’s Implementation of E-FOIA, Audit Report
  OIG-AR-01-01 (March 20, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              16
 Evaluation of the U.S. International Trade Commission’s Information Security
  Program and Practices, Audit Report OIG-AR-02-02 (September 13, 2002) . . . . .                                                                  16
 Evaluation of the Commission’s Travel Program, Audit Report
  OIG-AR-03-02 (September 30, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  17
 Evaluation of the USITC’s Records Management, Audit Report
  OIG-AR-05-00 (March 7, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           17




                                                                          i
                                                                   ig
                                           October 2003 SemiAnnual Report




                            TABLE OF CONTENTS-Continued
                                                                                                                                         Page

INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        18
  Inspection Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           18
  Actions on Prior Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               18
    U.S. International Trade Commission’s Occupant Emergency Program,
      Inspection Report OIG-IR-01-03 (March 28, 2003) . . . . . . . . . . . . . . . . . . . . . . . . .                                        18

INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             19
Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    19
  Alleged Submission of False Documents to the Commission . . . . . . . . . . . . . . . . . . . . .                                            20
  Misuse of Government Travel Card and Non-compliance with
    Federal Travel Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 20
  Other Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    21
  Violations of Federal Travel Regulations and Misuse of Government
    Travel Card, Semiannual Report to the Congress, (October 2002) . . . . . . . . . . . . .                                                   22

OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               23
 Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         23
 General Accounting Office (GAO) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       23
 Peer Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   24
 Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      24

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

TABLE 1 AUDIT REPORTS WITH QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . 27

TABLE 2 AUDIT REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29




                                                                       ii
                                         ig
                          October 2003 SemiAnnual Report




                     COMMISSION’S TOP
                  MANAGEMENT CHALLENGES
In fiscal year (FY) 2003, we began to discuss the Commission’s management challenges
within the framework of the President’s Management Agenda (PMA). The “Top
Management Challenges” facing the Commission as identified by the OIG—as well as
recent OIG activities relating to each challenge—are discussed below. Through audits and
inspections, the OIG has been helping the Commission to address these challenges.

                  The President’s Management Agenda
In summer 2001, the President announced the PMA that included five somewhat
interrelated Government-wide initiatives: (1) Competitive Sourcing, (2) Improved
Financial Performance, (3) Budget and Performance Integration, (4) Expanded Electronic
Government, and (5) Strategic Management of Human Capital. The Executive Branch
Management Scorecard tracks how well the departments and major agencies are executing
the five initiatives. Using a Stoplight Scoring System, the scorecard employs a simple
grading system:
       j Green for success,
       j Yellow for mixed results, and
       j Red for unsatisfactory.
OMB assesses agency “progress” against agreed upon deliverables and time lines
established for the five initiatives as follows:
       j Green: Implementation is proceeding according to plans agreed upon with the
         agency;
       j Yellow: Some slippage or other issues require the agency to adjust in order to
         timely achieve the initiative objectives; and
       j Red: The initiative is in serious jeopardy, and the agency likely will not realize
         objectives absent significant management intervention.
Because the Commission was not among the 24 PMA agencies and has not established
PMA deliverables and time lines, neither the Commission nor the OIG has attempted to
assess its PMA progress using the Stoplight Scoring System. However, the Commission’s
FY 2004 Budget Justification, as well as its strategic planning documents, expressed the
Commission’s commitment to the spirit of the five PMA initiatives. OIG work addressing
the Commission’s adherence to that spirit is discussed below.

                                            1
                                          ig
                           October 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

Management Challenge: Competitive Sourcing. To improve the performance and
efficiency of activities that are commercial in nature, the PMA calls for departments and
agencies to compare their commercial activities with those of the private sector and
determine whether the private sector or government employees perform the activity. The
intended outcome is better service at a lower price. Thus far, few agencies are viewed as
having progressed from red.

In November 2002, OMB proposed a revision to OMB Circular No. A-76, “Performance of
Commercial Activities.” If implemented, the OMB Circular would provide guidance on
assessing the benefits and effectiveness of competitive sourcing.

The Commission has competitively contracted for information technology services, certain
publishing services, mailroom and general labor services, cleaning and building
maintenance services, and security services. Private sector contract employees comprise
more than 10 percent of on-site personnel. In addition, other services are acquired on an
as-needed basis, such as virtually all equipment maintenance services, application systems
design and development, and certain audit and financial services. For example, the OIG
contracts for audit services. Also, the Office of Human Resources is using contractor
assistance in developing the human capital management plan.

The Commission has stated that its permanent staff is devoted to core agency investigative
functions and recurring support activities where the cost of outsourcing is less competitive.
In July 2003, the Commission issued its sixth comprehensive list of commercial activities
consistent with the Federal Activities Inventory Reform (FAIR) Act. The Commission has
said that it will continue to evaluate competitive alternatives and efficient service
contracting options to maximize efficiency and minimize cost. During this period, OIG
audits and inspections did not address competitive sourcing.

Management Challenge: Improved Financial Performance. This initiative is to
improve the quality and timeliness of financial information so that it can be used to reduce
waste, fraud, and abuse and manage federal programs more effectively. Most major
departments and agencies had unqualified opinions on their FY 2002 financial audit. Some
smaller agencies—including the Commission—received a waiver for presenting FY 2003
statements but subsequently will be required to prepare audited financial statements in
accordance with the Accountability of Tax Dollars Act of 2002 (Public Law 107-289). The
deadline for FY 2004 financial statements has been accelerated to November 15th—just 45
days after the end of the fiscal year.

                                             2
                                          ig
                           October 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

During this period, we audited the Commission’s financial management controls. Our audit
revealed that, generally, the Commission’s accounting records reasonably and fairly
represented financial transactions and that internal controls were in place. We found no
instances of fraud. However, we made four recommendations to strengthen internal
controls related to property, cash, payroll, and accounts receivable (discussed on pages
13-14). The Assistant Inspector General for Audit has coordinated with the Director, Office
of Administration, and his staff to ensure that the Commission prepares financial
statements in accordance with OMB provisions. The Commission will contract for
assistance in preparing the financial statements in FY 2004.

In FY 2003, the key components of the Commission’s total budget were personnel (73
percent) and rent (9 percent). Staffing levels have declined by 20 percent in the last 10
years, resulting largely from a 10 percent reduction-in-force in FY 1996 and decisions not
to fill certain vacancies. General administrative costs of the Office of Administration
(Human Resources, Facilities Management, and Finance) account for less than 7 percent
of total labor costs, and administrative staffing levels have been reduced by 45 percent
since FY 1996.

The Commission does not administer benefits and assistance payments programs and, as
such, would have few problems related to improper payments. Commission payments are
tied to Commission payroll and standard nonpersonnel costs such as space rental, travel,
training, services, supplies and equipment. Commission staff and senior managers monitor
execution of the Expenditure Plan, and the Office of Finance reviews payment procedures.
Also, the OIG has addressed aspects of payment procedures during the past three
information security audits (discussed on page 14) as well as the financial management
control audit (discussed on page 13).

Management Challenge: Budget and Performance Integration. The FY 2004
Federal Budget published ratings and detailed assessments of 234 federal programs—
approximately one-fifth of the entire federal government, representing $494 billion in
spending. When making budget decisions, OMB used the Performance Assessment Rating
Tool (PART) to view how well federal programs were performing and whether managers
were held accountable for performance. OMB plans to examine another 20 percent of
programs for FY 2005, and 100 percent of federal programs eventually. Performance
information will be used to (1) end or reform programs that either cannot demonstrate
positive results or are clearly failing and (2) put resources in programs that can prove they
are successful.

                                             3
                                          ig
                            October 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

In prior Semiannual Reports to Congress, the OIG identified as one of the Commission’s
top management challenges: Performance Management, Measurement and Account-
ability. Since FY 2000, the Commission has accelerated efforts to link budgeting with
strategic planning. Budget formulation and execution activities have been restructured to
permit the allocation of virtually all costs to one of the five operations set forth in the
Strategic Plan. Specifically, because personnel costs are more than 70 percent of total costs,
the Commission uses the labor cost reporting system to collect work years and cost
information and attribute it directly to strategic operations when feasible. Since FY 2001,
the Commission’s Budget Justification has presented cost and workload information in a
format that aligns direct and indirect costs with operations in the Strategic Plan.

In the Commission’s budget, all indirect costs are allocated to the Commission’s five
operations with the exception of the OIG activities, certain labor and union activities, and
certain nonpersonnel costs. These are reported as unallocated indirect costs. The
Commission also presents data using a budget object classification methodology. Budget
integration efforts to date have allowed Commission managers more effectively to track
changes in workload and compare them to changes in cost. In doing so, the Commission is
able to determine whether resources are being allocated efficiently. The performance goals
and indicators in the Commission’s Annual Performance Plan also provide measures by
which the agency’s activities can be assessed. During this period, OIG audits and
inspections did not address budget and performance integration—other than as this
agenda item is affected by financial management control (discussed on page 13) and
information security (discussed on page 14).

Management Challenge: Expanded Electronic Government. The Expanded
Electronic Government Initiative is designed to bring more services to the American citizen
over the Internet, make government more efficient, and improve information technology
(IT) management throughout the Executive Branch. Agencies continue to manage their IT
within a framework the Administration set up to avoid problems before investments are
made and taxpayer dollars lost. Agencies must demonstrate that their projects will provide
significant value to the mission, have a reasonable likelihood of success in meeting goals
and objectives, incorporate sufficient IT security, help achieve the PMA, and not duplicate
other investments. Unfortunately, almost half the modernization projects have insufficient
IT security, and the Administration intends not to let any such projects go forward without
it. There is also a shortage of qualified project managers and IT architects to successfully
manage federal IT investments. Out of the $59 billion in IT investments,

                                              4
                                          ig
                            October 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

771 projects representing $20.9 billion are currently on an “At-Risk List,” meaning they do
not successfully demonstrate sufficient potential for success through the business case, or
do not adequately address IT security.

Prior Semiannual Reports to Congress identified as one of the Commission’s top
management challenges: Information Technology Management and Security. Every
Commission business process—investigations, research, trade information services, trade
policy support, and administration—depends on reliable and effective information systems
and services. The information that the Commission processes and generates is a valuable
asset that management must protect from loss, misuse, unauthorized access or
modification.

The challenge the Commission faces in providing such protection is how to apply adequate
resources to ensure sufficient information security. Much of this information is in electronic
form, resides in a variety of hardware platforms and software applications, and is
accessible through various communications links. Although the Commission has avoided
work disruption or losses due to cyber-crime, the Commission’s data could be susceptible
both to physical and electronic threats.

Congress enacted the Government Information Security Reform Act (GISRA) in 2000, and
the Federal Information Security Management Act (FISMA) in 2002, to help federal
organizations protect government information resources. Each agency must centralize
information security management under its Chief Information Officer (CIO), as the
Commission did in FY 2003. The need for centralized information security management
results, in part, from the highly interconnected nature of modern information systems.

Agency Inspectors General are to conduct an annual independent evaluation of agency
information security programs and practices. Accordingly, we conducted comprehensive
audits of the Commission’s information security program in FY 2001, FY 2002, and FY
2003 (discussed on page 14). The FY 2003 evaluation completed during this period found
that the Commission must take further action in order to achieve consistency with OMB
Circular No. A-130, Appendix III Security of Federal Automated Information Resources
(February 1996). We identified 7 findings in the areas of management, operational, and
technical controls and made 18 recommendations to improve the Commission’s IT security.
Although problems persist, the Commission made sufficient progress in addressing them
that they neither in part nor in sum constitute a material weakness. In addition to
information security measures, the Commission has committed significant resources to
electronic government initiatives.

                                              5
                                                    ig
                                  October 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
In FY 2003, the Commission replaced the original Electronic Document Information
System (EDIS) with a new system that has increased functionality and promises
significant cost savings to external users. In FY 2003, the Commission also replaced its
local area network. In FY 2004, if funding is available, this effort will include development
of a new capability for providing secure Web access to non-public data by specific authorized
external customers. These initiatives are part of the Commission’s Information Resource
Management (IRM) Strategic Plan. Consistent with this plan, IT projects are evaluated
and prioritized in accordance with their contribution to the agency’s overall Strategic Plan
and the meeting of performance goals.
Management Challenge: Strategic Management of Human Capital. Facing
substantial prospective retirements, agencies must hire and retain people with needed
skills and hold them accountable for serving customers and stakeholders. OMB considered
20 agencies “green” for progress, meaning they had plans in place to assess their workforce
and to use every tool at their disposal to recruit and retain the workforce they need to fulfill
their missions.
In prior Semiannual Reports to Congress the OIG identified as one of the Commission’s top
management challenges: Human Capital and Staffing. Last year, the OIG assessed the
Commission’s family-friendly programs1—those programs promoted by the Office of
Personnel Management’s Office of Family-Friendly Advocacy—in terms of their
compliance with statutory and executive level guidance and whether they meet the needs
of Commission employees.

As previously noted, human capital is the Commission’s largest resource, with salaries and
personnel benefits representing approximately 73 percent of the FY 2004 budget. The
Commission maintains an expert staff of professional international trade and
nomenclature analysts, investigators, attorneys, economists, computer specialists and
administrative support personnel. All employees are located at 500 E Street, SW,
Washington, DC 20436. At the end of FY 2003, the Commission employed a total of 354.5
permanent employees.
Thirty-eight percent of the Commission’s workforce is eligible to retire in the next 5 years.
The Commission may realign resources as priorities shift, but the cost of the current
staffing level is increasing at a rate faster than appropriation levels as the number of Civil
Service Retirement System employees decreases and the number of Federal Employees

     1 Assessment of the Commission’s Family-Friendly Programs, Inspection Report,OIG-IR-06-01 (March 27, 2002)
http://www.usitc.gov/oig/OIG-IR-06-01.pdf.


                                                        6
                                         ig
                           October 2003 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
Retirement System employees increases. Thus, the Commission must streamline human
resource processes, review how it utilizes staff, and develop a better understanding of the
relationship between human resources and financial resources to ensure that the
Commission builds, deploys, and sustains a skilled, flexible, high-performing workforce. In
FY 2004, the Commission will focus on:
       j Leadership and Knowledge Management. In FY 2003, the Commission
         surveyed employees regarding workplace issues. The Chairman and Vice
         Chairman conducted listening sessions with small groups of employees to obtain
         first-hand knowledge of workplace issues. During FY 2003, the Commission
         conducted a strategic workforce planning initiative to analyze employee skills
         and identify any current or future skills gaps. In FY 2004, the Commission plans
         to work on an agency-wide strategy for linking assessed skill gaps to training
         curriculum and development initiatives.
       j Workforce Planning and Deployment. Currently, the Commission is
         reviewing position management to improve organizational effectiveness and
         align resources with workload and mission. During FY 2002, in fulfillment of the
         requirements of the Clinger-Cohen Act, the Commission established the CIO
         position. During FY 2003, the Commission realigned its IT resources better to
         support its mission as well as the implementation of electronic business and
         other IT initiatives. Innovative realignment of resources and strategic position
         management should continue in FY 2004 as the Commission redeploys existing
         resources to meet the surge in workload resulting from sunset investigations.
       j Strategic Alignment. During FY 2004, the Commission plans to complete a
         human capital management plan that establishes human capital goals and
         objectives that link to the Commission’s Strategic Plan. Taking a long view, the
         Commission will reflect how human capital supports mission achievement.
         Beginning in FY 2004, the Commission will move towards emphasizing
         performance-based accountability for senior managers.




                                            7
                                                                                                  ig
                                                                     October 2003 SemiAnnual Report




                                              COMMISSION’S ORGANIZATIONAL STRUCTURE

                                                        U.S. International Trade Commission




                                                                                     Chairman
                                                                                  COMMISSION




 Office of the          Office of the                                     Office of                  Chief                 Office of              Office of the           Office of
                                                Office of the                                                                                                              Equal
Administrative           General                Director of               External                Information           the Director of            Inspector
 Law Judges              Counsel                                          Relations                  Officer            Administration              General              Employment
                                                Operations                                                                                                               Opportunity

                                                                          Trade Remedy
                                                                         Assistance Office                                                    Employee
                                                                                                                                             Development



 Office of           Office of               Office of              Office of            Deputy CIO              Deputy                Office of                               Office of
Economics                                                              the                  for                 CIO for                 Human                    Office of     Facilities
                     Industries           Investigations                                                                                                         Finance
                                                                    Secretary            Management             Planning               Resources                              Management




                            Office of                  Office of
                          Tariff Affairs             Unfair Import             Office of                   Office of
                           and Trade                                           Publishing                Information
                                                     Investigations
                          Agreements                                                                       Services

             Budget Committee                                                                                     Information Resources Management Steering Committee (IRMSC)
                Authority: Adm. Order 00-06, dated 7/26/00                                                           Authority: Adm. Order 00-08, dated 8/25/00

                                                                                                                  Labor-Management Occupational Safety and Health Committee
             Directives Review Committee                                                                            Authority: Adm. Order 02-03, dated 1/10/02
                 Authority: CO71-U-004, dated 7/11/97

             Document Imaging Oversight Committee (DIOC)                                                          Labor-Management Partnership Council
                Authority: Adm. Order 96-06, dated 3/15/96                                                          Authority: Adm. Order 03-05, dated 2/11/03

             Executive Resources Board (ERB)                                                                      Strategic Planning Committee (SPC)
                Authority: Adm. Order 03-09, dated 6/10/03                                                           Authority: Adm. Order 02-08, dated 5/3/02

             Incentive Awards Committee (IAC)                                                                     Senior Executive Service Performance Review Board (PRB)
                 Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96                     Authority: Adm. Order 02-09, dated 7/15/02


                                                                                                     8
                                         ig
                          October 2003 SemiAnnual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov
The Commission is an independent, nonpartisan, quasi-judicial federal agency established
by Congress to provide trade expertise to both the Legislative and Executive Branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a
fair and objective manner; provide the President, the U.S. Trade Representative (USTR)
and the Congress with independent, quality analysis, information, and support on matters
of tariffs and international trade and competitiveness; and maintain the Harmonized Tariff
Schedule of the U.S. In so doing, the Commission serves the public by implementing U.S.
law and contributing to the development of sound and informed U.S. trade policy. Major
Commission activities include:

       j Import Injury Investigations-The Commission makes determinations in a
         variety of import injury investigations, primarily antidumping and
         countervailing duty (AD/CVD) investigations concerning the effects of unfairly
         traded imports on a U.S. industry.

       j Intellectual Property-Based Investigations-The Commission adjudicates
         complaints brought by domestic industries under section 337 of the Tariff Act
         of 1930 that allege infringement of U.S. intellectual property rights and other
         unfair methods of competition by imported goods.

       j Research-The Commission’s research program consists of probable economic
         effects investigations under section 131 of the Tariff Act of 1930; analysis of
         trade and competitiveness issues under section 332; and independent
         assessments on a wide range of emerging trade issues.

       j Trade Information Services-The Commission’s trade information services
         include such activities as trade remedy assistance; library services; legislative
         reports; maintenance of the Harmonized Tariff Schedule; Schedule XX; U.S.
         Schedule of Services Commitments under the General Agreement on Tariffs and
         Trade/World Trade Organization; preparation of U.S. submissions to the
         Integrated Database of the World Trade Organization; and certain other
         information gathering, processing, and dissemination activities.

       j Trade Policy Support-The Commission supports the formulation of U.S.
         trade policy, providing objective input to both the Executive Branch and the
         Congress on the basis of the distinctive expertise of its staff.

                                            9
                                         ig
                           October 2003 SemiAnnual Report




COMMISSION PROFILE—Continued

The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2-year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.

During this reporting period, several changes in the composition of the Commission
occurred. On August 22, 2003, President Bush appointed Commissioners Charlotte R.
Lane and Daniel R. Pearson to the Commission for the period that will expire at the end
of the second session of the 108th Congress.

The current Commissioners are Deanna Tanner Okun, Jennifer A. Hillman, Marcia E.
Miller, Stephen Koplan, Charlotte R. Lane, and Daniel R. Pearson. The current Chairman
is Deanna Tanner Okun and the current Vice Chairman is Jennifer A. Hillman.

In FY 2003, the Commission has an estimated $54.2 million in available funds ($54 million
appropriation and $200,000 carryover) and a staffing plan for 397.5 permanent positions
and 6.5 term/temporary positions. All employees are located in one building at 500 E Street,
SW, Washington, DC.




                 Charlotte R. Lane                       Daniel R. Pearson




                                            10
                                              ig
                              October 2003 SemiAnnual Report




              THE OFFICE OF INSPECTOR GENERAL
                     http://www.usitc.gov/oig
The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman. The Inspector
General is responsible for directing and carrying out audits, investigations, and inspections
relating to Commission programs and operations. The Inspector General also provides
comments and recommendations on proposed legislation, regulations, and procedures as
to their economy, efficiency and effectiveness.
As shown in the organizational chart, the OIG had three full-time positions and one
part-time position in FY 2003.
For FY 2003, the OIG was allocated 3.5 staff years. This provided for three full-time
positions (Inspector General, Assistant Inspector General for Audit, and Paralegal
Specialist) and one part-time position (Counsel to the Inspector General). The Commission
also allocated $140,000 for OIG contracted audit and review services for FY 2003.


                          Office of Inspector General: Organization
  Full-time

          Inspector General



                                                                               Part-time

    Assistant Inspector
                               Paralegal Specialist                      Counsel to the
     General for Audit
                                                                       Inspector General




                                                11
                                        ig
                          October 2003 SemiAnnual Report




                                     AUDITS
                              Audit Report List
We issued two audit reports during this period:
       j OIG-AR-02-03, Audit of the U.S. International Trade Commission’s Financial
         Management System Control (see page 13)
       j OIG-AR-03-03, Evaluation of the U.S. International Trade Commission’s Fiscal
         Year 2003 Information Security Program and Practices (see page 14)
The Commission completed pending actions recommended in two audit reports:
       j OIG-AR-01-03, Evaluation of the U.S. International Trade Commission’s
         Purchase Card Program (see page 16)
       j OIG-AR-01-01, Evaluation of the Commission’s Implementation of E-FOIA (see
         page16)
Generally, the Commission made progress implementing pending actions recommended in
the following reports since issuance of our last Semiannual Report:
       j OIG-AR-02-02, Evaluation of the U.S. International Trade Commission’s
         Information Security Program and Practices (see page 16)
       j OIG-AR-03-02, Evaluation of the Commission’s Travel Program (see page 17)
       j OIG-AR-05-00, Evaluation of USITC’s Records Management (see page 17)




                                          12
                                         ig
                           October 2003 SemiAnnual Report




AUDITS—Continued


                       Summary of Significant Audits




Audit of the U.S. International Trade Commission’s
Financial Management System Control, OIG-AR-02-03
(July 24, 2003) http://www.usitc.gov/oig/OIG-AR-02-03.pdf




The OIG audited the Commission’s financial data to assist the Commission in meeting the
new requirement mandated by the enactment of the Accountability of Tax Dollars Act of
2002 (Public Law 107-289, November 7, 2002) to prepare financial statements.

The overall objective of the audit was to evaluate the Commission’s financial data for
reliability, accuracy, completeness, and timeliness. Specifically, we determined whether the
Commission:

       j Established and communicated all procedures and policies governing
         transactions related to cash, accounts receivable, property, payroll, and
         disbursements.

       j Implemented sufficient internal controls to monitor and adequately control
         cash, accounts receivable, property, payroll, and disbursement transactions.

Our audit revealed that, generally, the Commission’s accounting records reasonably and
fairly represented financial transactions and that internal controls were in place. We found
no instances of fraud. However, we made four recommendations to strengthen internal
controls related to property, cash, payroll, and accounts receivable.

The Commission’s financial records may be misstated because property records were not
accurate. The audit disclosed that the Office of Facilities Management was not always
notified when an asset was disposed; lease agreements were not reviewed for
capitalization; and the costs of an asset under development were not tracked.

                                            13
                                                      ig
                                   October 2003 SemiAnnual Report




AUDITS—Continued
Payroll balances may be misstated because the Office of Finance adjusted the
Commission’s payroll records without determining the cause for the differences. These
figures were adjusted to agree with the figures reported by the Department of Interior, who
processes the Commission’s payroll. Additionally, the Commission had not set up a
receivable account to properly record the employees’ obligation and repayment of their
portion of parking subsidized by the Commission. Finally, the Office of Finance should
separate the various duties related to cash transactions. We found that one employee had
the responsibility to collect and process cash transactions.
The Commission concurred with our findings and completed action on three
recommendations, and one remained open.




 Evaluation of the U.S. International Trade
 Commission’s Fiscal Year 2003 Information
 Security Program and Practices, OIG-AR-03-03
 (September 22, 2003)
 http://www.usitc.gov/oig/OIG-AR-03-03.pdf




We conducted an independent audit of the Commission’s information security program and
practices to determine if the Commission: (1) implemented appropriate actions to address
recommendations made in OIG-AR-02-022 (September 13, 2002) and (2) met Federal
Information Security Management Act criteria.
Generally, the Commission made progress towards strengthening its information security
program during the 2003 fiscal year. The most commendable accomplishments include:
         j Filling the position of Chief Information Officer (CIO);
         j Incorporating in the CIO’s performance measures the successful resolution of
           open recommendations in the OIG information technology audit reports;

     2 OIG-AR-02-02 included follow-up audit work on all open recommendations from two prior audits: Evaluation of the
U.S. International Trade Commission’s Information Security Program, OIG-AR-02-01 (September 10, 2001)
http://www.usitc.gov/oig/OIG-AR-02-01.pdf and Review of the Commission’s Information Resources Management
Function, OIG-AR-01-00 (September 29, 2000) http://www.usitc.gov/oig/OIG-AR-02-01.pdf.


                                                         14
                                         ig
                           October 2003 SemiAnnual Report




AUDITS—Continued
       j Assessing the costs and benefits of obtaining vendor support for essential
         information technology services; and
       j Providing technical training to the network administrator, who will oversee
         outsourced network maintenance, as well as other technical staff.
Also, the Commission procured a new network operating system (new ITC-NET) that has
the capability to strengthen access controls. We did not test these controls, however,
because the Commission had not completed installing the new ITC-NET and certifying it
for use. Therefore, the recommendations surrounding system access controls remain open.
The Commission must take further action in order to achieve consistency with U.S. Office
of Management and Budget (OMB) Circular No. A-130, Appendix III Security of Federal
Automated Information Resources (February 1996). We identified 7 findings in the areas
of management, operational, and technical controls and made 18 recommendations to
improve the Commission’s IT security. The Commission concurred with our findings and
recommendations.
Due to the sensitive nature of the information contained in our report, we have limited its
distribution.




                                           15
                                         ig
                          October 2003 SemiAnnual Report




                           AUDIT FOLLOW-UP
During this reporting period, the Commission completed pending actions on two audits:
Audit of the U.S. International Trade Commission’s Purchase Card Program,
OIG-AR-01-03 (January 28, 2003) http://www.usitc.gov/oig/OIG-AR-01-03.pdf
The remaining one of two recommendations from this audit was implemented as follows:
       j Updated ITC Purchase Card Holder’s Handbook to include prohibition on split
         purchase orders.
All agreed upon actions were completed by April 1, 2003.
Evaluation of the Commission’s Implementation of E-FOIA, OIG-AR-01-01
(March 20, 2001) http://www.usitc.gov/oig/OIG-AR-01-01.pdf
The remaining one of five recommendations from this audit was implemented as follows:
       j Published amendments to 19 CFR 201.17-21 to emphasize FOIA affirmative
         access provisions.
All agreed upon actions were completed by August 5, 2003.


Pending recommended actions remain open on three audits reported in the previous
semiannual report:
Evaluation of the U.S. International Trade Commission’s Information Security
Program and Practices, OIG-AR-02-02 (September 13, 2002)
http://www.usitc.gov/oig/OIG-AR-02-02.pdf
For the last 4 years, the OIG performed an independent evaluation of the security over the
Commission’s information technology systems. Each audit included follow-up audit work
on all open recommendations. The above audit— OIG-AR-02-02— included follow-up audit
work on all open recommendations from the prior two audits:
       j Evaluation of the U.S. International Trade Commission’s Information Security
         Program, OIG-AR-02-01 (September 10, 2001) and
       j Review of the Commission’s Information Resources Management Function,
         OIG-AR-01-00 (September 29, 2000).
The results of the most recent audit, Evaluation of the U.S. International Trade
Commission’s Fiscal Year 2003 Information Security Program and Practices,
OIG-AR-03-03 (September 22, 2003), are discussed on page 14.

                                           16
                                         ig
                           October 2003 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
From our September 13, 2002 evaluation we made 16 recommendations to strengthen the
Commission’s information security. Of the 16 recommendations, our recent audit found
that the Commission completed action on 3 recommendations and partially resolved two.
Action to fully address all open recommendations is planned to take place by the end of the
2004 calendar year.
Evaluation of the Commission’s Travel Program, OIG-AR-03-02 (September 30,
2002) http://www.usitc.gov/oig/OIG-AR-03-02.pdf
This audit resulted in 6 recommendations, all of which were agreed to by management. One
recommendation has not yet been implemented, and the Commission is working to develop
policy.
       j Issue an Administrative Order directing supervisors to identify and
         communicate each cardholder’s planned travel in order to have the cardholder’s
         authorized charge limit modified accordingly.
Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00.pdf
This audit resulted in 22 recommendations, all of which were agreed to by management.
Twenty-one recommendations have been implemented. The Commission has been working
with the National Archives and Records Administration, and approval of the one
recommendation is expected. The Commission implemented EDIS-2, and certain
document types can now be filed in electronic form. Also, in some instances parties are
notified by e-mail of the availability of certain documents through the electronic docket.
       j Identify records scanned by EDIS so they can be disposed.




                                           17
                                         ig
                           October 2003 SemiAnnual Report




                                 INSPECTIONS

                             Inspection Report List
During this period we issued no inspection reports. However, the Commission has made
progress in implementing suggestions in prior inspections.


                        Actions on Prior Inspections
U.S. International Trade Commission’s Occupant Emergency Program,
Inspection Report, OIG-IR-01-03 (March 28, 2003)
http://www.usitc.gov/oig/OIG-IR-01-03.pdf
Given the September 11, 2001 attacks and subsequent terrorist threats, emergency
preparedness remains critical to ensuring a safe environment in which federal employees
and visitors can conduct their business. The OIG inspected the Commission’s Occupant
Emergency Program (OEP) to determine if it would adequately ensure the safety of
Commission and other occupants at 500 E Street, SW, in Washington, DC.
As the primary occupant agency at a federally leased facility, the Commission took the lead
in exercising emergency management in accordance with the Federal Property
Management Regulations. Of the building’s nine floors, the Commission leases the
majority of the first floor and the third through seventh floors to provide office space for
approximately 400 employees (see page 10). The Commission also maintains several
hearing rooms on the first floor to conduct business with non-Commission individuals.
The Commission shares the leased building with the Social Security Administration (SSA)
and the National Aeronautic and Space Administration (NASA). SSA has 128 employees
on the eighth and ninth floors; NASA has 111 contractors on the second floor.
This inspection, completed during the last reporting period, suggested actions to further
safeguard lives and property. During the current period, the Commission drafted a
handbook that includes emergency procedures with evacuation routes clearly marked for
SSA, NASA and Commission personnel. When approved, the handbook will be posted to
the Commission’s Intranet with copies provided to all building tenants. Also, the Federal
Emergency Management Agency (FEMA) established a Washington Area Warning System
(WAWAS) outlet at the Commission. The WAWAS outlet is a telephone hotline by which
FEMA, the U.S. Office of Personnel Management and the U.S. General Services
Administration can communicate emergency alerts to the Commission and other
organizations.

                                            18
                                            ig
                             October 2003 SemiAnnual Report




                               INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.


                           Summary of Investigative Activity
During this reporting period, three new cases were initiated and four cases were closed. A
summary of investigative activity is presented below.



       Case Workload                 Referrals Processed        Investigative Results
 Open (03/31/03)       1       Received                 3      Referrals for
                                                               Prosecution              0
 Initiated             3       Referred to OIG
                               Audit & Inspection              Referrals Declined
 Closed                4       Divisions                2      for Prosecution          0

 Open (09/30/03)       0       Referred to Commission   0      Administrative
                                                               Action                   1
                               Referred to other
                               Federal Agencies         0

                               Evaluated but no
                               Investigation
                               Initiated                0




Recoveries
Recovery from prior investigation: $6,772.76 (See discussion on page 22)




                                               19
                                         ig
                           October 2003 SemiAnnual Report




INVESTIGATIONS—Continued


Alleged Submission of False Documents to the Commission
The OIG received an allegation from the Chairman that a business entity may have
submitted falsified documents to the Commission. As part of our preliminary inquiry into
the matter, the OIG met with an Assistant U.S. Attorney (AUSA) from the U.S.
Department of Justice (Justice), to discuss the facts of the case, burden of proof problems,
and the possibility of prosecution. Considering the inquiry findings and the AUSA’s
advice—as well as subsequent litigation that began between the business entity and the
Commission—the Inspector General determined that an investigation would be neither
productive nor cost effective.
The Counselor to the Inspector General referred leads developed in the preliminary inquiry
to the Assistant Inspector General for Audit for consideration in planning future audits and
inspections.


Misuse of Government Travel Card and Non-compliance with Federal
Travel Regulations
The OIG investigated an employee’s alleged misuse of his Citicorp Government Travel
Card (Travel Card) and non-compliance with Federal Travel Regulations during the years
2000-2002. While employed by the Commission, the employee:
       1. Charged $3,633.97 to his Travel Card for furniture, airline tickets, veterinary
          bills, and other personal charges unrelated to official government business
          travel. Subsequently, the traveler alerted his Office Director that he improperly
          had used the Travel Card and thereafter ceased the misuse.
       2. Made most payments past due, but paid all charges in full.
       3. Filed most travel expense reports either late or not at all, although he filed one
          expense report within the required 5-day period.
       4. Submitted expense reports for trips, which did not match his Travel Card
          charges. His omissions from the expense reports cost him $229 ($129 for lodging
          on one trip plus $100 for airfare on another trip).
       5. Could not provide documentation or a valid explanation for one trip’s
          miscellaneous expenses totaling $151.33. However, his Office Director approved
          the expenses.

                                            20
                                                       ig
                                    October 2003 SemiAnnual Report




INVESTIGATIONS—Continued
          6. Included a $50 conference registration fee in his travel expense report although
             training must be approved and paid through an agreement outside the travel
             system.
          7. Incurred an additional $1,003.20 in flight expense due to his failure to use
             contract carriers for two trips, costing an additional $286 and $717.20
             respectively. However, his supervisors approved his inadequate justifications
             that “available seats on flight reported back by Zegato3 to me” and “fits
             schedule.”
          8. Processed his travel advances improperly, but the Finance Office corrected the
             situation.

The OIG reported the findings to the employee’s Office Director for appropriate
administrative action.


Other Matters
An agency employee wrote the OIG expressing concerns about work assignments,
supervision and other management issues within a Commission organizational unit. The
OIG interviewed the employee and heard from other employees with related concerns.
Because the issues raised did not warrant an investigation, the Counselor to the Inspector
General referred the matter to the Assistant Inspector General for Audit for consideration
in planning future audits and inspections.

Also, a probationary employee contacted the OIG regarding the agency’s decision to dismiss
the employee during the probationary period. The OIG reviewed the situation and, finding
no matters that would warrant further investigation, determined that the contemplated
personnel action was within management’s authority according to applicable laws and
regulations.




   3   Zegato is the Commission’s automated travel management system.


                                                          21
                                         ig
                           October 2003 SemiAnnual Report




                   INVESTIGATION FOLLOW-UP
Violations of Federal Travel Regulations and Misuse of Government Travel Card,
Semiannual Report to the Congress, (October 2002, page 22)
http://www.uistc.gov/oig/OIG-SA-10-02.pdf.
Based upon an OIG investigation, the Chairman directed the Commission to seek
reimbursement from a former high level agency official in the amount of $6,772.76. During
this reporting period, the Commission completed recovery of $6,772.76. The OIG would like
to acknowledge the Office of General Counsel and the Office of Finance for their successful
debt collection effort.




                                           22
                                                          ig
                                     October 2003 SemiAnnual Report




                                      OTHER ACTIVITIES

Regulatory Review
The Inspector General Act, 5 U.S.C., Appendix, Section 4(a)(2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy and efficiency of
programs and operations administered by the Commission.

The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. The OIG reviewed and commented on a notice of
rulemaking pertaining to E-FOIA implementation (see discussion of OIG-AR-01-01 on
page 16) as well as the Commission’s new Travel Management System Handbook. Within
the federal OIG community, the OIG commented on the President’s Council on Integrity
and Efficiency (PCIE)4 Guide for Conducting Qualitative Assessment Reviews for
Investigation Operations of Inspectors General, as applied to designated federal entity
(DFE) 5 Offices of Inspector General.


General Accounting Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard
to the activities of the Comptroller General of the United States with a view toward
avoiding duplication and ensuring effective coordination and cooperation. For the past 10
years, GAO has not audited or evaluated the Commission’s programs. No GAO reviews
regarding the Commission’s activities were initiated or completed during this reporting
period.




     4 President’s Council on Integrity and Efficiency (PCIE) Offices of Inspectors General consist of Presidential appointee
Inspectors General. Most of the PCIE OIG offices are for Cabinet agencies and other large federal agencies. PCIE OIGs
usually have a staff greater than 20 people and have statutory law enforcement authority.
     5 Designated Federal Entity (DFE) Offices of Inspectors General, established by the 1988 Amendments to the Inspectors
General Act of 1978, are each under the supervision of an Inspector General usually appointed by the agency head. Many of
the DFE OIGs—including the USITC OIG—are located in smaller federal agencies, have fewer than 20 staff, and have no
statutory law enforcement authority.


                                                             23
                                          ig
                            October 2003 SemiAnnual Report




OTHER ACTIVITIES—Continued


Peer Review
The Assistant Inspector General for Audit completed a peer review of the system of quality
control for the audit function of the National Endowment for the Humanities Office of
Inspector General (NEH OIG) in effect for the year ended March 31, 2003. The Inspector
General Act of 1978, as amended, requires federal OIGs to conduct audits in accordance
with the Comptroller General’s Government Auditing Standards (GAO “Yellow Book”). The
“Yellow Book” calls for each federal statutory OIG to undergo a peer review every 3 years.
The NEH OIG received our draft report and draft letter of comments on September 30,
2003.
The USITC OIG is scheduled to undergo an audit peer review during FY 2004, and is
working with other OIG offices to develop and participate in an investigation peer review
in the future.


Liaison Activities
The Inspector General is one of 28 DFE Inspectors General, who are members of the
Executive Council on Integrity and Efficiency (ECIE). Established by Executive Order
12805 on May 11, 1992, the ECIE is chaired by the Office of Management and Budget and,
in addition to the Inspectors General, includes representatives from the Office of Personnel
Management, the Office of Government Ethics, the Office of Special Counsel, and the
Federal Bureau of Investigations.
The Inspector General also participates in activities sponsored by the PCIE, which consists
primarily of the Presidentially appointed Inspectors General. The ECIE and PCIE have
identical functions and responsibilities to promote integrity and efficiency and to detect and
prevent fraud, waste and abuse in federal programs.




                                             24
                                        ig
                          October 2003 SemiAnnual Report




OTHER ACTIVITIES—Continued
 During this period, the Inspector General was elected to the Board of the Association of
 Inspectors General, where federal, state and local OIGs share ideas on how to enhance
 their effectiveness and professionalism. The Inspector General has served for 2 years as
 a member of the PCIE ECIE Human Resources Committee on which he participated with
 other Inspectors General to develop a pilot leadership development training program for
 OIG auditors, investigators, and other professionals. In August 2003, the Inspector
                                         General spoke to the pilot training program
                                         participants at the Federal Executive Institute
 While maintaining productiv-            in Charlottesville, Virginia. In addition to
 ity, each of us has volunteered         Human Resource Committee activities, the
 some contribution to the overall        Inspector General has for more than 2 years
 OIG community.                          volunteered as an occasional guest instructor for
                                         the Inspectors General Auditor Training
                                         Institute. As a Certified Myers Briggs Type
              r
 Instrument (MBTI) Professional, he facilitated three team building workshops using
 the MBTI for multiple Offices of Inspector General in Rosslyn, Virginia.
 The Assistant Inspector General for Audit is a member of the Financial Statement Audit
 Network (FSAN) that anticipates potential changes and shares experiences related to
 auditing their respective agencies’ financial statements. The Counsel to the Inspector
 General, as a member of the Inter-agency Ethics Council, continued to provide a monthly
 report to the Inter-agency Ethics Council on Federal Court cases involving ethics issues.
 She is a member of the Council of Counsels to the Inspectors General (CCIG). She and
 other CCIG members, and the U.S. Office of Government Ethics designed an ethics
 training module for the Inspectors General Auditor Training Institute. The Paralegal
 Specialist participated on a committee to design the logo, poster and other means to
 promote the October 2003 25th Anniversary of the IG Act.




                                           25
                                          ig
                         October 2003 SemiAnnual Report




              REPORTING REQUIREMENTS INDEX
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.
CITATION            REPORTING REQUIREMENTS                                             PAGE

Section 4(a)(2)     Recommendations concerning the impact of such legislation or
                    regulations on the economy and efficiency in the administration
                    of programs and operations administered or financed by the
                    Commission                                                           23

Section 5(a)(1)     Description of significant problems, abuses, and deficiencies
                    relating to the administration of programs and operations          None

Section 5(a)(2)     Description of the recommendations for corrective action made
                    with respect to significant problems, abuses, or deficiencies      None

Section 5(a)(3)     Identification of each significant recommendation described in
                    previous semiannual reports on which corrective action has not
                    been completed                                                     13-17

Section 5(a)(4)     Summary of matters referred to prosecutive authorities and the
                    prosecutions and convictions which have resulted                     19

Section 5(a)(5)     Summary of each report made to the head of the establishment
                    under which information or assistance was unreasonably refused     None

Section 5(a)(6)     Listing of each audit report                                         12

Section 5(a)(7)     Summary of each significant report                                 13-15

Section 5(a)(8)     Statistical tables showing Audit Reports-Questioned Costs            27

Section 5(a)(9)     Statistical tables showing Audit Reports-Funds Put to Better Use     28

Section 5(a)(10)    Summary of each audit report issued before the commencement of
                    the reporting period for which no management decision has been
                    made by the end of the reporting period                            None

Section 5(a)(11)    Description and explanation of the reasons for any significant
                    revised management decisions                                       None

Section 5(a)(12)    Information concerning any significant management decision
                    with which the Inspector General is in disagreement                None



                                             26
                                                         ig
                                     October 2003 SemiAnnual Report




                      Table 1
       AUDIT REPORTS WITH QUESTIONED COSTS1
                                                                                                      Dollar Value

                                                         Number of                    Questioned              Unsupported
                                                           Reports                         Costs                    Costs

A.        For which no management decision has
          been made by the commencement of the period               0                             0                         0

B.        Which were issued during the reporting period             0                             0                         0

          Subtotals (A+B)                                           0                             0                         0

C.        For which a management decision was made
          during the reporting period                               0                             0                         0

          (i)      Dollar value of
                   disallowed costs                                 0                             0                         0

          (ii)     Dollar value of costs
                   not disallowed                                   0                             0                         0

D.        For which no management decision has been
          made by the end of the reporting period                   0                             0                         0

E.        Reports for which no management decision was
          made within six months of issuance                        0                             0                         0




    1 The ITC OIG generally does not perform contract audits that are the basis for mandatory reporting of questioned and
unsupported costs.


                                                            27
                                                ig
                               October 2003 SemiAnnual Report




                     Table 2
     AUDIT REPORTS WITH RECOMMENDATIONS
        THAT FUNDS BE PUT TO BETTER USE
                                                                          Number of   Dollar
                                                                            Reports    Value

A.     For which no management decision has been made by
       the commencement of the period                                             0       0

B.     Which were issued during the reporting period                              0       0

Subtotals (A+B) 0                                                                 0

C.     For which a management decision was made during the reporting period       0       0

       (i)     Dollar value of recommendations that were
               agreed to by management                                            0       0

       (ii)    Dollar value of recommendations that were
               not agreed to by management                                        0       0

D.     For which no management decision has been made by the end of the
       reporting period                                                           0       0

E.     Reports for which no management decision was made within six
       months of issuance                                                         0       0




                                                   28
                                         ig
                           October 2003 SemiAnnual Report




                                   GLOSSARY
The following definitions apply to the terms used in this report.
Questioned Cost              means a cost that is questioned by the Office because of:
                             (1) an alleged violation of a provision of a law, regulation,
                             contract, grant, cooperative agreement, or other agreement or
                             document governing the expenditure of funds; (2) a finding
                             that, at the time of the audit, such cost is not supported by
                             adequate documentation; or (3) a finding that the expenditure
                             of funds for the intended purpose is unnecessary or
                             unreasonable.

Unsupported Cost             means a cost that is questioned by the Office because the
                             Office found that, at the time of the audit, such cost is not
                             supported by adequate documentation.

Disallowed Cost              means a questioned cost that management, in a management
                             decision, has sustained or agreed should not be charged to the
                             Government.

Recommendation that          means a recommendation by the Office that funds could be
funds be put to better       used more efficiently if management of an establishment
use                          took actions to implement and complete the recommendation,
                             including: (1) reduction in outlays; (2) deobligation of funds
                             from programs or operations; (3) withdrawal of interest
                             subsidy costs on loans or loan guarantees, insurance, or
                             bonds; (4) costs not incurred by implementing recommended
                             improvements related to the operations of the establishment,
                             a contractor or grantee; (5) avoidance of unnecessary
                             expenditures noted in preaward reviews of contract or grant
                             agreements; or (6) any other savings which are specifically
                             identified.




                                           29
                      ig
         October 2003 SemiAnnual Report




    Special thanks to the Office of Publishing
        for the production of this report:

     Keven Blake: Cover design and photography

Pamela Dyson: Report design and composition services

      Printing Operations: Reproduction service




                        30
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                      IGHotline@usitc.gov
                               or
                  EthicsLine 1--800--500--0333
                               or
              http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                             Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
